                            SOCIAL SECURITY
                                    August 2, 2005



The Honorable F. James Sensenbrenner, Jr.
Chairman, Committee on the Judiciary
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

I want to thank you for your interest in the Social Security Administration’s Office of
Hearings and Appeals (OHA). In a February 8, 2005 letter, you requested that we
review the Milwaukee, Wisconsin, OHA processing of hearing requests. We have
completed our work and the results of our review are discussed in the enclosed report.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. We have provided a copy of the enclosed
report to Congressman Paul Ryan. If you have any questions concerning this matter,
please call me or have your staff contact H. Douglas Cunningham, Assistant Inspector
General for Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                   Sincerely,




                                                   S
                                                   Patrick P. O’Carroll, Jr.
                                                   Inspector General

Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Dale W. Sopper, Deputy Commissioner for Finance, Assessment and Management
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
Reginald F. Wells, Deputy Commissioner for Human Resources
A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals




            SOCIAL SECURITY ADMINISTRATION BALTIMORE, MARYLAND 21235-0001
                            SOCIAL SECURITY
                                    August 2, 2005




The Honorable Paul Ryan
Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Ryan:

I want to thank you for your interest in the Social Security Administration’s Office of
Hearings and Appeals (OHA). In a February 8, 2005 letter, you requested that we
review the Milwaukee, Wisconsin, OHA processing of hearing requests. We have
completed our work and the results of our review are discussed in the enclosed report.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. We have provided a copy of the enclosed
report to Congressman F. James Sensenbrenner, Jr. If you have any questions
concerning this matter, please call me or have your staff contact H. Douglas
Cunningham, Assistant Inspector General for Congressional and Intra-Governmental
Liaison, at (202) 358-6319.

                                                   Sincerely,




                                                   S
                                                   Patrick P. O’Carroll, Jr.
                                                   Inspector General

Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Dale W. Sopper, Deputy Commissioner for Finance, Assessment and Management
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
Reginald F. Wells, Deputy Commissioner for Human Resources
A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals




            SOCIAL SECURITY ADMINISTRATION BALTIMORE, MARYLAND 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

      Review of Milwaukee
 Office of Hearings and Appeals

          A-13-05-25140




           August 2005
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                  Executive Summary
OBJECTIVE
In a February 8, 2005 letter, to the Inspector General, Representatives
F. James Sensenbrenner, Jr. and Paul Ryan questioned whether actions taken since 2003
have addressed deficiencies in the Milwaukee Hearings Office's (MHO) processing of
hearing requests. Specifically, our objectives were to: (1) follow up on actions the
Chicago Regional Office of Hearings and Appeals (OHA) planned to implement; (2) obtain
and compare accuracy and efficiency data from MHO with regional and national data;
(3) determine whether hearing requests Congress submitted to the MHO on behalf of
constituents are monitored and processed timely; and (4) review the MHO’s processing of
hearing requests for individuals facing imminent homelessness or terminal illness.

BACKGROUND
The Chicago Regional OHA conducted a review of the MHO operations in February 2003.
In its April 15, 2003 internal report, the review team identified 88 action items to address
the identified deficiencies.

In June 2003, Senators Herb Kohl and Russell D. Feingold, and Representative
Jerry Kleczka expressed concern about constituents receiving the level of service they
deserved from the MHO. The Congressmen requested that we investigate the MHO
operations. Our report, issued in November 2003, confirmed 64 of the 88 action items had
been implemented by August 14, 2003. According to MHO management, 23 of the
remaining 24 action items were implemented in October 2003. We also reported the
number of backlog claimant cases per Administrative Law Judge increased from 578 at the
end of Fiscal Year (FY) 2002, to 973 at the end of FY 2003. The Agency identified five
actions it planned to take to address the growing number of backlog cases.

RESULTS OF REVIEW

SSA reported taking action on all five items intended to address the growing MHO claimant
case backlog. However, we believe one of the five action items was not fully implemented.
That action item was to make Marquette, Michigan a satellite office.

We found MHO had a higher case backlog, more new claimant cases per day, and took
more days to process a case than the national averages for these efficiency measures.
Finally, the MHO had a process in place for monitoring congressional inquiries and
individuals facing imminent homelessness or terminal illness.




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)
                                                                    Table of Contents
                                                                                                             Page

BACKGROUND ......................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Follow-up of Action Items from November 2003 Report..........................................3

Data Accuracy and Efficiency..................................................................................5

Congressional Interest Cases .................................................................................8

Claimant Cases Involving Imminent Homelessness or Terminal Illness..................9

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Efficiency Trend Data




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)
                                                                     Background
OBJECTIVE
In a February 8, 2005 letter, Representatives F. James Sensenbrenner, Jr. and
Paul Ryan questioned whether actions taken since 2003 have addressed deficiencies in
the Milwaukee Hearing Office’s (MHO) system for processing hearing requests. We
conducted this review in response to their concerns. Our objectives were to:

   •   follow up on actions the Chicago Regional Office of Hearings and Appeals (OHA)
       planned to implement;

   •   obtain and compare accuracy and efficiency data from the MHO with regional
       and national data;

   •   determine whether hearing requests Congress submitted to the MHO on behalf
       of constituents are monitored and processed timely; and

   •   review the MHO’s processing of hearing requests for individuals facing imminent
       homelessness or terminal illness.

BACKGROUND
The Social Security Administration (SSA) administers two programs that provide
benefits based on disability—Disability Insurance and Supplemental Security Income
programs. The Office of Disability and Income Security Programs (ODISP) directs and
manages the planning, development, issuance and operational regulations, standards
and instructions for these programs. Within ODISP, OHA is responsible for conducting
hearings and issuing decisions as part of determining whether a person may receive
disability benefits. OHA consists of 10 regional offices and approximately 140 hearing
offices. The Chicago Regional OHA services residents in the six State area comprised
of Illinois, Indiana, Michigan, Minnesota, Ohio, and Wisconsin. MHO is 1 of 20 hearing
offices within the Chicago Regional OHA structure.

The Chicago Regional OHA conducted a review of the MHO operations in February
2003. In its April 15, 2003 internal report, the review team identified 88 action items to
address the identified deficiencies. Most of the deficiencies pertained to: caseload
management; decision writing; administrative issues; computer systems; and health,
safety, and security issues.




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                           1
In June 2003, Senators Herb Kohl and Russell D. Feingold and Representative
Jerry Kleczka expressed concern about constituents receiving the level of service they
deserved from the MHO. The Congressmen requested that we investigate the MHO
operations. Our report, issued in November 2003,1 confirmed 64 of the 88 action items
had been implemented by August 14, 2003. According to MHO management, 23 of the
remaining 24 action items were implemented in October 2003. We reported MHO
management planned to implement the remaining health and safety training action item
by December 30, 2003.

We also reported the number of backlog2 claimant cases per Administrative Law Judge
(ALJ) increased from 578 at the end of Fiscal Year (FY) 2002, to 973 at the end of
FY 2003. The Chicago Regional OHA identified a number of actions it planned to take
to address the growing number of backlog cases.




1
 Congressional Response Report: Operations at the Social Security Administration’s Milwaukee,
Wisconsin, Office of Hearings and Appeals (A-13-03-23091) November 14, 2003.
2
 The backlog includes all cases that are in-process from the date a hearing was requested to the notice
date of the decision.


Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                                        2
                                                    Results of Review
MHO implemented the remaining Chicago Regional OHA recommendation to address
deficiencies identified during its February 2003 review. In addition, ODISP
management reported taking action on the five items intended to address the growing
MHO claimant case backlog. However, we believe one of the five action items was not
fully implemented. The action taken for this item had limited impact on the MHO
backlog of claimant cases.

We also found MHO had a higher case backlog, more new claimant cases per day, and
took more days to process a case than the national averages for these efficiency
measures. The MHO had a process for monitoring inquiries made by members of
Congress on behalf of constituents. However, MHO management reported these cases
were processed under the MHO’s normal procedures. Similar to other claimant cases,
cases of interest to Congress are processed in the order received unless the case
meets certain criteria. Lastly, MHO had a process for expediting hearing requests for
individuals facing imminent homelessness or terminal illness.

Follow up of Action Items from November 2003 Report
In November 2003, we reported MHO management had implemented all but one action
item to address deficiencies identified in the April 2003 internal report. During our
review MHO management reported the remaining health and safety training action item
was implemented.

We also reported in November 2003 five specific actions the Chicago Regional OHA
planned to take to address the growing MHO claimant case backlog. To determine
whether those actions were implemented as planned, we obtained information from
ODISP officials. ODISP management reported that the action items were implemented.
However, we believe the last action item reported below was not fully implemented.
The action taken for this item had limited impact on the MHO’s backlog of claimant
cases. ODISP management provided us the following information regarding these
action items.

• The Chicago Regional Office planned to implement the use of video technology. The
  Deputy Commissioner for ODISP was looking into expediting the installation of video
  teleconference technology in the MHO and Marquette remote site by the close of
  Calendar Year 2003. The long-term goal was to install similar equipment in offices
  located in other cities served by MHO. This would negate the need for physical travel,
  which would allow for more efficient processing of the claimant cases from these
  cities.




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                    3
  ODISP reported video hearing (VH) equipment installations have been completed at
  the MHO and the Green Bay, Wisconsin and Oshkosh, Wisconsin remote hearing
  sites. Video equipment was installed at the Marquette, Michigan location on May 16,
  2005. The Chicago Regional Office expects to install video equipment at the
  Wausau, Wisconsin remote hearing site in 2006.

• The Chicago Regional Chief ALJ instructed MHO to prepare for visiting ALJs to assist
  with its caseload in FY 2004. The initial plan indicated ALJs from the following
  locations in the State of Illinois would travel to MHO to ease the pressure of the
  climbing receipts: Evanston, Chicago South, Oakbrook Terrace, and Peoria.

  Rather than using visiting ALJs, ODISP reported the MHO transferred claimant cases
  to other OHA offices. In FY 2004, the MHO transferred 150 cases to the Dayton,
  Ohio hearing office and another 500 cases were transferred to hearing offices in
  Chicago, Illinois; Orland Park, Illinois; Evansville, Indiana; and Indianapolis, Indiana.
  Additionally, 1,000 cases were transferred to the Dallas region. In FY 2005, 1,500
  cases were transferred to the Dallas region hearing offices.

• The MHO planned to use the assistance of contractor file assembly and hearing office
  "case work-up" personnel to prepare cases for the assisting office. ODISP reported in
  FY 2004, the MHO transferred 380 cases aged over 365 days to other OHA offices for
  folder preparation and hearing assistance. As of March 2005, the Chicago OHA
  region sent 825 cases to other OHA offices for assembly.

• The Chicago Regional Chief ALJ anticipated hiring new ALJs in FY 2004 for the MHO.
  In June 2004, two additional ALJs were hired and assigned to MHO. In addition,
  ODISP stated one ALJ reported to the MHO on May 16, 2005 and a second ALJ is
  expected to report on July 11, 2005.

  During our review, MHO management indicated concern about the lack of support
  staff needed to properly prepare claimant cases for review by the ALJs. We obtained
  information for the Chicago OHA region concerning the ratio of support staff to ALJs.
  The April 2005 report ranked the Orland Park, Illinois hearing office as 1st with a ratio
  of 8.25 support staff per ALJ. MHO was ranked 16th of the 20 offices in the Chicago
  region. It had a ratio of 4.18 support staff per ALJ.

  SSA reported to us in July 2005 that MHO will be hiring 11 new employees by the
  end of FY 2005. Nine of the employees should report to MHO by August 7, 2005,
  and the other 2 employees should report to the MHO by September 30, 2005.

• The Deputy Commissioner for ODISP had been given a proposal to make Marquette,
  Michigan an official satellite office. This entailed staffing the Marquette hearing office
  with judges, clerks, writers, management, etc. MHO’s caseload related to Marquette,
  Michigan claimants would be transferred to the newly formed Marquette satellite
  office. Thus, Milwaukee ALJs would not have to travel to Marquette.



Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                         4
    Concerning this action item ODISP management reported:

          In February 2004, the Marquette site was converted to a permanent remote site,
          allowing the Office of Hearings and Appeals (OHA) to acquire leased space to
          conduct its Marquette area hearings. The acquisition of permanent space allows
          for the installation of VH equipment which should reduce the need for Milwaukee
          ALJs to travel to Marquette to conduct hearings.3

Although the use of VH equipment at the Marquette location will reduce ALJ travel, it
will not significantly reduce the backlog of cases assigned to the MHO. We recognize
that the cost benefit of making the Marquette location a satellite office has to be
weighed against other Agency priorities. However, if the Agency would make the
Marquette location a satellite office with its own staff, about 1,000 MHO backlog cases
scheduled for a hearing at the Marquette location could be transferred from the MHO to
Marquette. As of April 2005, this could have reduced MHO’s case backlog by
approximately 11 percent. In addition, all future claimant cases in the Marquette area
could be assigned to the Marquette satellite office. The result would be reducing MHO
backlog and therefore improving overall case processing time.

Data Accuracy and Efficiency

To address our objective regarding the accuracy of MHO data, we reviewed claimant
case processing information contained in the Agency’s Case Process Management
System (CPMS). Specifically, we verified whether the number of cases reported as “in
process” in the CPMS management reports was accurate. At the MHO, we selected
approximately 72 percent (6,444 of 8,941) of the claimant cases reported as in process
in CPMS for review. Our selection was based on cases with a status code indicating
the cases were not being edited on the day of our review. We confirmed approximately
98.9 percent (6,374 of 6,444) of the cases selected were located in the appropriate
MHO’s case files. We did not test the accuracy of regional and national workload data
contained within CPMS. A review is currently being conducted to assess the ability of
CPMS to improve workload management at hearing offices within OHA.4

During our review, we examined certain efficiency measures. We found MHO had a
higher case backlog and more new claimant cases per day than the regional and
national averages. MHO’s claimant case dispositions per ALJ was lower than the
national and regional averages. In addition, we found the MHO took more days to
process a case than the national average, but less time than the regional average. We
examined data from the CPMS5 reports for the MHO, the Chicago OHA region, and the
Nation for the period October 1997 to April 2005 and found the trends identified in the
following charts. See Appendix C for numeric details.

3
    DCDISP electronic mail dated April 11, 2005.
4
    SSA, OIG, Case Processing and Management System and Workload Management (A-12-06-26012).
5
    Prior to May 1, 2004, trend information was derived from OHA’s former Hearing Office Tracking System.


Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                                      5
                                                                     Chart 1

                                                  Backlog/Average Available ALJ

                 1400
                 1200
                 1000
  No. of Cases




                 800
                 600
                 400
                 200
                       0
                             FY 1997    FY 1998     FY 1999       FY 2000       FY 2001   FY 2002       FY 2003   FY 2004   FY 2005 (YTD
                                                                                                                            as of 4/30/05)

                                                                            Fiscal Year

                                                              Milwaukee       Chicago Region        National

The claimant case backlog per available ALJ, as of April 2005, was 1,031 cases at the
MHO, the Chicago OHA regional average was 874 cases, and the national average was
723 cases.
                                       Chart 2

                                                  Average New Cases/Day/ALJ

                 3.5
                  3
                 2.5
  No. of Cases




                  2
                 1.5
                  1
                 0.5
                  0
                           FY 1997     FY 1998     FY 1999       FY 2000       FY 2001    FY 2002       FY 2003   FY 2004   FY 2005 (YTD
                                                                                                                            as of 4/30/05)

                                                                            Fiscal Year

                                                      Milwaukee              Chicago Region          National

New claimant cases received per day per ALJ, as of April 2005, was 2.79 cases at the
MHO, the Chicago OHA regional average was 2.54 cases, and the national average
was 2.41 cases.




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                                                                           6
                                                               Chart 3

                                           Average Dispositions/ALJ/Day

                  3

                 2.5
  No. of Cases




                  2

                 1.5

                  1

                 0.5

                  0
                       FY 1997   FY 1998   FY 1999        FY 2000      FY 2001    FY 2002        FY 2003   FY 2004   FY 2005 (YTD
                                                                                                                     as of 4/30/05)

                                                                    Fiscal Year

                                                      Milwaukee      Chicago Region         National

Claimant case dispositions per ALJ, as of April, 2005, were 2.15 cases for the MHO, the
Chicago OHA regional average was 2.27 cases and, the national average was 2.30
cases.
                                        Chart 4

                                             Average Processing Days

                 600

                 500
  No. of Days




                 400

                 300

                 200

                 100

                   0
                       FY 1997   FY 1998    FY 1999       FY 2000      FY 2001    FY 2002        FY 2003   FY 2004   FY 2005 (YTD
                                                                                                                     as of 4/30/05)

                                                                    Fiscal Year

                                                      Milwaukee      Chicago Region         National

The number of processing days is the average number of calendar days from the date
of the hearing request to the disposition date. The average number of days to process
a case, as of April 2005, was 484 at the MHO, 488 days for the Chicago OHA regional
average, and 422 days for the national average.



Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                                                                    7
Congressional Interest Cases
During our review, we found the MHO had a system in place to track congressional
interest cases. However, MHO management informed us that these cases were
processed under the office’s normal procedures. Similar to other claimant cases, cases
that are of interest to Congress are processed in the order the request for hearing is
received unless the case meets the dire need criteria. At the time of our review, there
were 344 congressional interest cases being processed at the MHO.

The process begins when congressional inquiries are referred to the MHO’s
Congressional Liaison. When a congressional inquiry is made, the Congressional
Liaison places a red cover on the claimant case folder and enters case information into
CPMS. Also the MHO maintains a separate, electronic spreadsheet listing various
information about an inquiry, such as reason for entry, etc. Each month a summary
report is prepared from CPMS and sent to appropriate congressional representatives
specifying the status of their respective inquiries. In addition, the MHO issues letters
regarding these inquiries. Letters are sent to the congressional inquirer and the
claimant or the claimant representative when the:
     • inquiry is received by MHO,
     • case is scheduled for a hearing, and/or
     • disposition is reached.

Although MHO management reported congressional interest cases were not processed
differently unless the case met the dire need criteria, OHA policy, Hearings Appeals and
Litigation Law (HALLEX) I-2-1-40 B.4., Critical Cases, indicates these cases would
warrant instituting critical case processing procedures. Specifically, this policy states
critical case processing procedures should be used if the case has been delayed an
inordinate amount of time, i.e. it has been pending more than 60 days longer than the
average processing time for the office in question, and there is a public, congressional
or other high priority inquiry on the case.

We requested information from ODISP regarding this policy. According to ODISP
management:

        …OHA does not require hearing offices to monitor the pending cases to identify
        those that have congressional interest and have aged an inordinate amount of
        time. The Milwaukee HO follows the HALLEX reference in as much as they will
        escalate processing of a case when they receive a congressional inquiry if the
        case has been pending an inordinate amount of time; however, Milwaukee reports
        that the example time frame shown in HALLEX (60 days) is not realistic given the
        current backlogs and processing times.6

SSA reported in July 2005 that OHA is exploring revisions to the critical case
procedures in HALLEX I-2-1-40. One objective is to ensure that a hearing office is able

6
    DCDISP electronic mail dated July 1, 2005.


Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                         8
to give priority attention to the neediest claimants. Escalating too many cases may
significantly hinder this goal. OHA expects HALLEX to be revised by September 30,
2005.

To complete our analysis, we requested ODISP provide detailed information about the
processing time for FY 2004 congressional interest cases. On July 1, 2005, ODISP
management responded to our request by informing us that there is currently no CPMS
report that provides cumulative processing time for congressional, critical or terminally ill
cases for a given hearing office. Therefore, we were unable to independently verify
MHO’s average processing time for congressional interest cases.

Claimant Cases Involving Imminent Homelessness or Terminal Illness
MHO had a process for expediting hearing requests for individuals facing imminent
homelessness or terminal illness. These individuals’ cases are classified as dire need.
Dire need is defined by OHA as a person who is suicidal, homicidal, terminally ill, or
facing a financial crisis such as bankruptcy or eviction. We found the MHO had a
process in place to expedite dire need cases once identified.

MHO management stated the process begins with an initial screening by the docket
clerk. The clerk reviews case documentation for the existence of a potential dire need
situation. The claimant case folder is flagged with a green stick-on label if the clerk
suspects a dire need situation exists. The MHO Office Supervisor is then notified. The
Supervisor consults with an ALJ, if the supervisor is unable to determine whether the
claimant has a dire need. Once a dire need is determined, the Supervisor immediately
assigns the case to a Senior Attorney. The Senior Attorney reviews the case for the
possibility of an on-the-record (OTR) decision. An OTR decision occurs when a
disability award can be granted based on medical and other evidence already
documented in the claimant case folder. If the Senior Attorney determines that an OTR
decision is not possible, the case is returned to the Supervisor for immediate “workup.”
Workup involves gathering documentation and putting together the exhibits for the case,
which will be assigned to an ALJ. Once the case is assigned to an ALJ, a hearing date
is established as soon as possible. As previously discussed, we were not able to
independently verify the timeliness of this process.

We observed MHO’s processing of a congressional interest case that was determined
to be a dire need case. The claimant was terminally ill. A Congressional
Representative from the fourth district of Wisconsin made an inquiry about the status of
the individual’s case. The Representative’s staff had contacted the MHO on
April 5, 2005, and notified MHO the claimant was recently diagnosed with terminal lung
cancer. MHO notified the Congresswoman the next day that the case was flagged as a
congressional interest and a dire needs case, and would receive immediate attention. A
favorable disposition for this claimant was reached on April 12, 2005, and the notice
was mailed to the claimant on April 13, 2005.




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)                         9
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Efficiency Trend Data




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)
                                                                     Appendix A

Acronyms
    ALJ                Administrative Law Judge

    CPMS               Case Process Management System

    FY                 Fiscal Year

    HALLEX             Hearings Appeals and Litigation Law

    MHO                Milwaukee Hearing Office

    ODISP              Office of Disability and Income Security Programs

    OHA                Office of Hearings and Appeals

    OTR                On the Record

    SSA                Social Security Administration

    VH                 Video Hearing




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)
                                                                     Appendix B

Scope and Methodology
We collected and analyzed information specific to the concerns identified by
Representatives Paul Ryan and F. James Sensenbrenner, Jr. regarding the Milwaukee
Hearing Office’s (MHO) system for processing hearing requests. To determine the
status of actions the Chicago Regional Office of Hearings and Appeals (OHA) planned
to implement, we contacted the Office of Disability Programs in Baltimore, Maryland and
visited the MHO during the week of April 10, 2005. Our review covered the period
September 2003 to April 2005.

To achieve our objectives, we:

•   Obtained and examined the prior report that summarized our review of the MHO
    operations.
•   Evaluated conditions identified in the report and determined whether the Chicago
    OHA and MHO management addressed prior issues in a timely manner.
•   Reviewed and evaluated the MHO’s performance since September 2003.
•   Visited the MHO to determine the status of actions taken.
•   We obtained from the OHA Case Process Management System a Workload
    Summary report as of April 13, 2005, and selected backlogged cases to verify the
    MHO claimant case counts in the report. We also reviewed actual claimant case
    folders to verify existence of the case files.
•   We collected productivity reports and other pertinent information from the MHO, and
    the OHA’s intranet site. We examined certain productivity measures, and compared
    the MHO with regional and national data.
•   Obtained testimonial and documentary evidence to determine processing of
    congressional interest and dire need cases.

The Social Security Administration operating component reviewed was the Office of the
Deputy Commissioner for Disability and Income Security Programs. We performed our
review in Milwaukee, Wisconsin, and Baltimore, Maryland from March through
July 2005. We conducted our review in accordance with Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)
                                                                                 Appendix C

Efficiency Trend Data
                 Fiscal
                  Year                                                                           FY 2005
                  (FY)                                                                            (as of
                  1997     FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   4/30/05)
Backlog (Year
End)
Milwaukee          4,272     3,688     3,934     2,676     3,021     4,237     8,059     8,735     9,411
Chicago Region    63,359    46,728    39,710    43,759    62,130    75,954    99,315   122,117   123,911
National         476,414   372,602   311,722   346,756   435,904   500,757   591,562   664,276   711,029

Backlog/
Average
Available ALJ
Milwaukee           327       265       289       289       411       578       973      1,145     1,031
Chicago Region      410       297       265       331       530       587       736        946       874
National            479       343       291       351       474       517       607        703       723

Average New
Cases/Day/
ALJ
Milwaukee           1.49      1.34      1.63      2.25      2.52      2.08      3.31      2.82      2.79
Chicago Region       1.7      1.49      1.65      2.03      2.22      1.98      2.53      2.59      2.54
National               2      1.71      1.82       2.1      2.19      2.13       2.4      2.41      2.41

Average
Processing
Days
Milwaukee           410       392       374       300       290       346       354       415        484
Chicago Region      464       409       316       267       295       352       383       437        488
National            389       374       317       297       308       336       344       391        422

Average
Dispositions/
ALJ/Day
Milwaukee           1.76      1.61      1.79      2.04      2.14      2.03      2.02      2.38      2.15
Chicago Region      1.92      1.88      1.82      1.92      1.88      2.18      2.18      2.22      2.27
National            2.06      2.07      2.03      2.06      2.02       2.2      2.35       2.4      2.30

Average
Number of
Available ALJs
Milwaukee          13.05     13.93     13.61      9.25      7.35      7.33      8.28      7.63      9.13
Chicago Region    154.49    157.15    149.57    132.23    117.14     129.3    134.93    129.15    141.81
National          995.19   1,087.3   1,069.9    988.56    919.25    969.46    974.57    944.42    983.86




Review of Milwaukee Office of Hearings and Appeals (A-13-05-25140)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
